                 Department of Justice
                        United States Attorney David L. Huber
                            Western District of Kentucky
______________________________________________________________________________
FOR IMMEDIATE RELEASE                               CONTACT: SANDY FOCKEN
MONDAY, DECEMBER 10, 2007                                 PHONE: (502) 582-5911
WWW.USDOJ.GOV/USAO/KYW                                      FAX: (502) 582-5097

               INDIANA CONTRACTOR AGREES TO PAY $8.2 MILLION
                 TO SETTLE FEDERAL AND STATE FRAUD CLAIMS

                    • Pay approximately $6.7 million to the United States
             • Pay back the $5.3 million early completion bonus on Interstate 64
                     • Pay $1.16 million to Commonwealth of Kentucky
                                 • Pay $362,165 to Indiana

                                          *** *** ***

        LOUISVILLE, KY - David L. Huber, United States Attorney for the Western District of

Kentucky, along with Kentucky Attorney General Greg Stumbo and Indiana Attorney General

Steve Carter, announces today that Gohmann Asphalt and Construction, Inc. (“Contractor” or

“Gohmann”), an Indiana corporation, has agreed to pay $8,221,396.29 to settle federal and state

claims that Gohmann fraudulently swapped samples of asphalt between 1997 and 2006 to inflate

the amount of monies paid on road projects by the Federal Highway Administration, the

Commonwealth of Kentucky, and State of Indiana. Most significantly, Gohmann, one of the

region’s largest highway paving companies, has also agreed to provide warranties to correct

future deficiencies in work on highways in Kentucky and Indiana.

        "This is a very significant settlement," said David L. Huber, United States Attorney for

the Western District of Kentucky. Most importantly, we have protected the taxpayers in five

ways:

        1.      penalizing the Contractor for fraudulent work in the total amount of over
               $8.2 million, including the following, on 132 federally funded road projects in

               Kentucky and Indiana;

       2.      recovering the $5.3 million “bonus” for early completion of the Interstate 64

               reconstruction;

       3.      requiring a future procedure where state officials and an independent

               contractor take the test core samples;

       4.      requiring the Contractor to extend warranties on 66 road projects for three

               additional years;

       5.      requiring the Contractor to agree to a corporate governance plan and

               appoint an Independent Compliance Officer.

       U.S. Attorney Huber said, "It also demonstrates the high degree of cooperation between

the federal and state governments in fighting fraud. It is a significant recovery of monies, and it

is designed to assure that if any defects arise in the future, they are addressed and promptly

corrected."

       Further, it is also “an affirmation of the Federal Whistleblower’s Act.” A former

employee of the contractor is being rewarded under the Act in the amount of $1,153,835 “for

bringing this to our attention.” “This amount comes from the $6.7 million, and $362,165 paid to

the United States and the State of Indiana, respectively,” Huber said.

       $7,059,154.26 of the settlement is being paid to settle claims arising out of two separate

whistleblower suits filed by Paul Roederer, a former employee of Gohmann. The first suit, filed

on June 23, 2003, in the United States District Court for the Western District of Kentucky,

alleged that Gohmann swapped cores on federally funded highway projects. The second suit,

filed August 15, 2007, in Clark County Circuit Court, Indiana, made similar allegations for

highway projects funded, in part, by Indiana.
       According to the settlement agreement with the United States and Indiana, and the

separate agreement with Kentucky, between 1997 through 2006 in Kentucky, and between 1998

through 2006 in Indiana, Gohmann submitted or caused others to submit false claims with

respect to certain federally funded road projects in Kentucky and Indiana where asphalt density

was a component of pay. The United States and Indiana contend that Gohmann submitted or

caused to be submitted false claims for payment to the states of Indiana and Kentucky, who

supervise highway construction projects in their respective states, on road projects, where the

density of asphalt pavement mixture (hereinafter “asphalt”) was a component of pay, that were

funded in whole or in part by the Federal Highway Administration (“FHWA”) pursuant to 23

C.F.R. §§ 635.101 et seq. On such projects, Gohmann was paid for its work based on a formula

which took into account, among other things, the density of asphalt applied to the road – which

accounted for 40% of payment to Gohmann for Kentucky projects, and 35% of payment for

Indiana projects. Asphalt density that fell below a certain minimum threshold could result in a

reduced payment to Gohmann.

       The United States, Indiana, and Kentucky further allege that Gohmann inflated the

payments it received through a fraudulent practice called “core-swapping.” Density was

measured by extracting “cores” of asphalt following its application to the road. The samples

were tested for density in a laboratory. The laboratory results were then used by Indiana and

Kentucky in determining Gohmann’s compensation. Gohmann’s employees fraudulently

swapped “good” cores – cores with density believed to be in the required range – for “bad” cores

– cores with failing density – thereby attempting to ensure that Gohmann received full

compensation for the density factor per ton of asphalt applied, whereas otherwise, the pay factor

for density would have been subjected to a deduction.

       The United States, Indiana, and Kentucky further allege that Gohmann employees
accomplished this core swapping by using density gauges manufactured by Troxler Electronic

Laboratories (commonly referred to as “Troxler devices”) to take density readings of the asphalt

prior to the extraction of cores. Using the Troxler devices, Gohmann employees knew which

sections of road contained failing asphalt (that is, asphalt, when tested in the laboratory, would

fail to meet density requirements), and which sections of road contained passing asphalt (that is,

asphalt, when tested in the laboratory, would meet or exceed density requirements). Gohmann

employees would then take additional samples from sections of road containing passing asphalt,

and switch those with cores taken from sections of road containing failing asphalt.

         The United States, Indiana, and Kentucky allege that Gohmann engaged in swapping

between 10% and 40% of the times when core sampling was used to determine compensation.

         One of the projects Gohmann was also involved in was a major road resurfacing project

on Interstate 64 during the Fall of 2001 in Louisville, KY (“I-64 Project”). The I-64 Project was

time sensitive and imposed rigid restrictions on when the contractor could perform the work. As

a result of completing the I-64 Project ahead of schedule, Gohmann received a $5,316,750

bonus.

         Once alerted about the investigation, Gohmann cooperated with the investigating

authorities in reaching this settlement.

         Gohmann has agreed to pay to the United States $6,696,988.96 and $362,165.30 to the

State of Indiana. In a separate settlement, Gohmann has agreed to pay $1,162,242.03 to the

Commonwealth of Kentucky. As a result of these settlements, the entire amount of the bonus

received by Gohmann on the I-64 project has been repaid back to the government. Gohmann has

further agreed to enter into a corporate governance program with the government designed to

prevent further fraud and abuse. Gohmann has also agreed to extend warranties on many of its

highway projects for a period of three (3) additional years.
       As a result of his efforts in filing the whistleblower actions, and assisting the government

in its investigation, Mr. Roederer will receive $1,153,835.99 ($1,096,794.96 from the United

States and $57,041.03 from Indiana).

       “We are pleased to recover these funds on behalf of Indiana citizens,” Indiana Attorney

General Steve Carter said. “The additional terms of this agreement will ensure future protections

for our communities.”

       “It is important to ensure that taxpayers get what they pay for so that the quality of

products used in transportation projects is not compromised,” said Michelle McVicker, Special

Agent-in-Charge, U.S. Department of Transportation’s Office of Inspector General. “We will

continue working with the Secretary of Transportation, the Administrator of Federal Highways,

and our colleagues at the U.S. Department of Justice to promote the detection and prosecution of

fraud schemes which erode public confidence in the integrity of our Nation’s transportation

system.”

       The claims in this matter were investigated by the U.S. Attorney’s Office, with assistance

from the Department of Justice’s Commercial Litigation Branch, Civil Fraud Section, the Office

of the Inspector General for the Department of Transportation, the Kentucky Office of Attorney

General and the Indiana Attorney General’s Office, and the Indiana and Kentucky Departments

of Transportation. This case was prosecuted by Assistant United States Attorney Benjamin S.

Schecter, with the assistance of Auditor Phil Bezehertny, and Investigator David Perkins.

       Mr. Roederer was represented by C. Dean Furman, John Webb, and William P. Emerick.

Gohmann was represented by Marc Murphy with the law firm of Stites and Harbison.

                                               ###
